                         TABLE OF CONTENTS



Introduction •          ...                                     1

Executive Summary.       ..                                     2

    I.   Organization and Staffing.                             3

   II.   Status of Items Reported in Previous Report.           5

  III.   Description of significant Problems.                   7

   IV.   Review of Legislation and Regulations • • •       •   11

    V.   Activities and Performance Indicators.            • 13
             Audits •                                      • 13
             Investigations •                              • 18
             Inspections.   •                              •   29

  VI.    Special Efforts to Control Fraud, Waste
         and Mismanagement.                   • ••         • 31
Appendix     List of each audit report issued during the
period October 1, 1979 to March 31, 1980 • • • • •         • 36
                           INTRODUCTION
                           _ F        <



This is the third semiannual report of the Office of Inspector
General, General Services Administration (GSA), submitted pur-
suant to the Inspector General Act of 1978 (P.L. 95-492).  It
covers the period October 1, 1979 to March 31, 1980, and
includes, as required by the Act:

     1.   A description of significant problems, abuses, and
          deficiencies in agency programs;

     2.   Recommendations for corrective action;

     3.   A report on the status of significant items
          previously reported;

     4.   A summary of matters referred to prosecutive
          authorities; and

     5.   A listing of all audit reports issued.

(No reports pursuant to Section 6 (b) (2) of the Act were submitted
to the Administrator during this reporting period.)

In the first section of this report, we describe the current
organization of the Office of Inspector General and indicate our
staffing trends.  With respect to our request for additional
audit personnel, the Administrator of GSA has been of extraor-
dinary assistance in seeking Office of Management and Budget
(OMB) and legislative approval.

The second section indicates the status of certain matters which
were identified as significant problems in our last semiannual
report.

The third section describes the significant problems, abuses and
deficiencies identified during the reporting period and recommen-
dations for corrective action.

The fourth section focuses on the results of our review of pro-
posed regulations and legislation.

The next section describes overall activities in our Audits,
Investigations and Inspections programs.

The final section of this report identifies our special efforts
to control fraud, waste and mismanagement.

I would like to acknowledge the continued excellent support
received from Administrator Freeman in carrying out the respon-
sibilities of my Office.




KURT W. MUELLENBERG
Inspector General
General Services Administration

                                  1
                            EXECUTIVE SUMMARY


Some of the more significant activities of the reporting period
are as follows:

 , rOpened 338 investigative cases.. with the continuing empha-
 v sis on white collar crime, 189 cases, or 56 percent, were
    white collar crime cases.

        losed 339 investigative cases.

 I   7J:f~f er r ed 20 debarment actions and 8 s uspens ion act ions.
 L/   Administrative actions related to these debarments and
      suspensions have resulted in savings and recoveries of over
      $315,000 to the Government and $18,000 to others.

        ssued 22 subpoenas.

       Issued 95 internal audit reports.

        ssued 140 external (contract)     audit reports with recommended
       savings of over $26 million.

      -Referred 23 cases to the Department of Justice for prosecu-
       tive consideration.

     ~eferred 11 cases     to the Department of Justice for civil
       recovery.

      -Referred two cases to local authorities for prosecutive
       consideration.

 L/-Referred 168 cases to GSA management for administrative
    action.  Of these referrals, corrective action has been taken
    in 85 caseS1 no action was deemed necessary in 18 cases and
    65 are still pending.

      -Referred three cases to other agencies having jurisdiction.

      -Provided assistance to the Washington Field Office of the
       FBI.  This effort resulted in felony charges being filed
       against 11 individuals.

      -Reviewed 35 lease cases with over one million square feet
       involved and an annual rental of over $8 million.
       Findings of four of these reviews are being turned over to
       U.S. Attorneys.

      -Recommended savings of almost $8 million as a result of our
       inspection activity in the Public Buildings Service.

      -Coordinated interagency audit of furniture management and
       procurement.

                                     2
                 I.   ORGANIZATION AND STAFFING

The establishment of four operational offices, the Offices of
Audits, Inspections, Investigations and Special projects have
greatly enhanced our ability to address major areas of vulnerabi-
lity and concern within the agency both through functional spe-
cialization and through the employment of multi-disciplinary
teams com~osed of attorneys, investigators, auditors and subject
matter specialists.  Additional staffing resources are assigned
to the immediate Office of the Inspector General, which includes
the Complaints Officer, and to the Office of the Executive
Director which has responsibility for financial and administra-
tive management.

Through reorganization of the Office of Investigations, as well
as reorientation of other existing programs, the Office of
Inspector General has been streamlined to provide for more effec-
tive implementation of the concepts of the Inspector General Act.
Activities which were purely programmatic, but which had pre-
viously been assigned to either the Office of Investigations or
the Office of Audits, have been more appropriately assigned
within the agency.  Such programs included those involved with
personnel and physical security, with investigations addressed
primarily to street crimes not involving GSA employees, with
maintenance of debarred and suspended bidders lists, and with
management follow-up reporting on audit recommendations.   The
reporting levels within the Office of Investigations have been
reduced to permit more efficient nationwide coordination and
control of investigative casework.  The new organization struc-
ture for this Office is designed to encourage proactive investi-
gations and to control investigative activities by GSA program
and function.

Fiscal Year 1980 positions are distributed as follows:

                                                  Field
      Inspector General                                     6
      Offices of:
          Audits                     55           235     290
          Investigations             22           126     148
          Inspections                 6            76      82
          Special Pr jects           27                    27
          Executive Director         19                    19
             TOTAL                  135           437     572


                           Figure 1.1




                                3
                                  OFFICE OF INSPECTOR GENERAL
                                GENERAL SERVICES ADMINISTRATION


                                      Inspector General
                                   Deputy Inspector General


                                                                      Office of the
                                                                    Executive Director




     I                                                                                   I
  Office of                   Office of                      Office of              Offic e of
Special projects               Audits                       Inspections           Investi gations




                     Field Audit Offices                  Area Inspections       Field In'vestigations
                                                               Offices                 Of fices

                   Boston           Kansas City           Washington            Boston       Kansas City
                   New York         Fort Worth            Atlanta               New York     Fort worth
                   Philadelphia     Denver                Chicago               Washigton    Denver
                   washington       San Francisco         San Francisco         Atlanta      San Francisco
                   Atlanta          Auburn                                      Chicago      Auburn
               ,--f.hic~<lQ



                                             Figure 1.2


                                                    4
     rl.   STATUS OF ITEMS REPORTED AS SIGNIFICANT PROBLEMS,
           ABUSES AND DEFICIENCIES IN THE PREVIOUS REPORT'


A.   CONSTRUCTION PROJECT DELAYS AND COST OVERRUNS

The Otisville correctional facility has been beset with signifi-
cant cost increases and construction problems.  As of January 1,
1980, GSA turned over the project, only partially completed, to
the Bureau of Prisons.  The Commissioner, public Buildings
Service (PBS), is assembling a team of personnel not previously
involved with this project to complete a final review.

The broad audit/inspection/investigation activities undertaken by
this Office is continuing.  During this reporting period, a draft
audit report was transmitted to management detailing a series of
significant and costly problems associated with that project.
Management has recently submitted a response to the draft report,
and a final audit report will be issued shortly.   In addition,
an inspection report, further detailing the problems in this pro-
ject, is in draft and will be forwarded to management in the near
future.  As part of the overall review undertaken by this Office,
subpoenas have been issued.

B.   MAJOR TELECOMMUNICATIONS PROCUREMENT

Information was provided to the Administrator indicating that the
pending award of a contract with an estimated annual cost of
$50 million for upgrading telephone service in the Washington
D.C. area violated GSA procurement regulations relating to sole
source acquisitions.

On January 17, 1980, the GSA Systems Acquisition Review Council
(SARC) met to review the Automated Data and Telecommunications
Service (ADTS) proposal.  After considering matters presented
both for and against the proposal, the SARC concluded, and the
Administrator later concurred, that ADTS had not established the
need to replace the metropolitan Washington, D.C. telecom-
munications system.

C.   NON-COMPETITIVE AWARD OF GUARD CONTRACTS

Security guard contracts within the National Capital Region (NCR)
had not been competitively awarded as required by law and GSA
regulations.   We reported the loss of over $4 million as a result
of" the sole source extension of the contracts. The Regional
Administrator, NCR, prepared a formal plan for corrective action
to ensure the competitive award of all contracts by April 1,
1980.

On March 25, 1980, the Regional Administrator reported the formal
advertisement of 54 guard contracts since September 1979.  Thirty
contracts have been awarded to date.  It was estimated that the
remaining 24 contracts would be awarded by May 31, 1980.

                                 5
D.   TERM CONTRACTS

In our previous report, we stated that this type of contracting
is particularly vulnerable to abuse.  We also reported that three
term contractors had been convicted and sentenced and cases had
been opened on three others.

The Management Review Staff completed the first interdisciplinary
review, combining information from each element of the Inspector
General's Office to prepare a report on the use of term contracts
in PBS.  The report, issued by the Inspector General to the
Administrator, noted that weaknesses still existed in the control
and use of these contracts and urged increased management atten-
tion to limit their use.




                               6
     III.    DESCRIPTION OF SIGNIFICANT PROBLEMS, ABUSES AND
             DEFICIENCIES AND RECOMMENDATIONS FOR CORRECTIVE ACTION


A.    PUBLIC BUILDINGS SERVICE

      1.    Leases

Reviews conducted by our Office have uncovered several instances
where GSA is paying for space that is unoccupied.  Some of the
causes for these situations included improper planning and a lack
of agency cooperation, major alterations not completed by a spe-
cific date and GSA not making progress in reassigning the space.
Total leased space of approximately 186,000 square feet, with a
cost to the Government of over $2 million, was involved.

Our recommendations to correct these situations included amending
leases and putting a freeze on lease actions in a certain area
until the unoccupied space is filled.

Other activities in the leasing area included the review of five
lease prospectuses at the request of the U.S. Senate Committee on
Environment and Public Works.  The review disclosed that four of
the prospectuses appear to be in the best interest of the
Government and the fifth one should be withdrawn.  Another review
disclosed that GSA was about to terminate a favorable lease as a
result of poor lease administration.  This would cost an esti-
mated $4.4 million.  We recommended that GSA make the necessary
alterations at a considerably lower cost.

      2.    Construction Programs

Our review of the construction activities in GSA disclosed
problems in contract management of the Architect-Engineer Term
Contract Program and defects and omissions in building
construction.

While doing a nationwide audit of the Construction Management
Program, we discovered several questionable contracts being
administered by a contracting officer. On three construction
projects, the officer did not take appropriate or prudent
admini trative steps to safeguard the best interests of the
Government.  Consequently, he approved and/or permitted excessive
payments by the Government to construction contractors totaling
over $1.1 million.  These facts were reported to the Regional
Admin strator for app opriate review and action.

At the request of senator Max Baucus, our auditors initiated a
review of the leas ng and construction contracts for the Federal
Building in Helena, Montana.  Our review disclosed that the pro-
jec wa     agued with problems from its inception reSUlting in
the Government leasing a defective, substandard building substan-
tially la er than originally planned.

                                    7
Our recommendations suggested making future specifications more
precise and gearing inspections to detect problems at earlier
stages.  We also recommended that approximately $52,000 in fire
watch labor costs should be recovered from the lessor.

An audit of the Architect/Engineer Term Contract program in one
of our regional offices determined that the program needs
direction.  In our opinion, the selection of supplemental
architect~/ engineers (A/E)  does not meet the prescribed legisla-
tive requirements for A/E selection.   Orders for some A/E ser-
vices were for non-traditional A/E services and were, on
occasions, issued in excess of the GSA dollar limitation.
Instructions to A/E firms on how to prepare their cost proposals
were incomplete and confusing, and contract administrati6n was
deficient.

Our recommendations to the Assistant Regional Administrator,
PBS, called for establishing procedures for identifying potential
projects requiring the services of the term A/E and notifying all
prospective A/E term contractors of these projects, restricting
work orders to individual dollar limitations, instructing A/E
term contractors on how to develop and support hourly rates and
overhead, and develop realistic schedules of accomplishment.   In
addition, we recommended that the contracting officer should
develop independent Government estimates prior to the request for
the A/E work order proposal, revise A/E invoice processing proce-
dures and require appropriate explanations for any adjustments to
audited salary rates.

B.   FEDERAL SUPPLY SERVICE

     1.   Multiple Awards

Our reviews of selected multiple award commodities have shown
that GSA lacks adequate customer demand data, product specifica-
tions and direct vendor competition.  As a result, multiple award
contracts do not always provide the best prices and/or services
for customer agencies.  The basic problems are that GSA does not
know user requirements and the schedules have too many product
lines and vendors to be effectively controlled.

Based on these reviews and a GAO audit in this area, the
Commissioner of the Federal Supply Service (FSS) has initiated a
management review project to correct the problems associated with
multiple award contracting_  These efforts include increasing the
use of competitive procurement, improving the system us   to
gather customer demand data and removing several luxury type
items from the schedules program.




                               8
     2.   Audits of Furniture procurement. and Management

An interim report on System Furniture was issued on December 14,
1979.  The report highlighted estimated planned expenditures by
Federal agencies of over $227" million for the wholesale replace-
ment of usable furniture.  In addition, an interagency report
consolidating the efforts of 18 independent audit groups to be
issued next quarter, is expected to show poor implementation of
property managemept regulations by most Federal agencies, and
inadequacy in GSA's discharge of its oversight responsibility
regarding implementation and enforcem~nt of these regulations.

C.   FEDERAL PROPERTY RESOURCE SERVICE

     1.   Donation   Progra~


GSA is responsible for the management of the Federal Surplus
Personal property Donation Program.  In 1976, donee eligibility
was expanded to include state and local agencies.  Under the
expanded program, the state agencies were assigned the respon-
sibility for determining donee eligibility and administering the
distribution of the property in their states.

Our review showed that several state agencies are not complying
with all GSA approved provisions of their state plans.    A
sampling of donation transactions identified recipients that are
ineligible and property that is not being used for its approved
purpose.  Some of these cases have been referred for continued
investigation.   In some instances, the state agency system for
donated property accountability did not provide adequate
controls.   In addition, several GSA regional offices need to
improve their administration of the program.

Our recommendations included specific procedures for determining
donee eligibility, ensuring donated property accountability and
compliance with Federal regulatory and state plans.  In one state
a recommendation was issued for the suspension of the program
unless certain conditions contributing to the loss of control
over surplus property were corrected.  Additionally, GSA needs to
improve their program administration and more effectively adhere
to their oversight responsibilities.

D.   SAFETY

Dur,ing a regularly scheduled audit of the Bladensburg, Maryland
storage facility, a problem was discovered with the storage of a
hazardous material, polychlorinated biphenyl (PCB).   The material
was stored at ground level in an area subject to flooding and the
facility was neither constructed within existing requirements nor
marked to show the existence of the hazardous material.   An
interim report was issued to bring management's attention to the
situation.   Since the issuance of the report the material has
been moved from the facility.

                                 9
E.   ENERGY
     ------
We conducted a review of six energy intensive buildings under
GSA's control.  The review disclosed that many established guide-
lines and regulations were being violated.  Although the agency's
overall energy conservation program and results are impressive,
our review indicated that with the full implementation of
established regulations and guidelines along with good management
practices in the buildings, an additional 20 to 30 percent in
energy savings could be realized with little, if any, monetary
outlay.

The Administrator was informed of our findings along with spe-
cific recommendations tailored to the buildings we reviewed.

F.   OTHER

     1.   Review of Year-End Obligations

Reviews of GSA's year-end obligations are performed annually to
ensure that expenditures at the end of the fiscal year are valid.
Our reviews disclosed that several regions failed to obligate
funds as required to cover accrued costs under lease escalation
clauses.  Had they done so, the budgeted regional rental allow-
ances would have been insufficient to cover the obligations.   It
appears that when the nationwide rental account is adjusted to
reflect these unrecorded obligations, the rental appropriation
will be deficient.  This problem has been reported to management
through interim audit reports in Regions 5 and 9 and will be
reported in several other regions in the next quarter.  A con-
solidated report will be issued to the Administrator.

      2. Review of Controls over Federal Buildings Fund Payments

This audit is performed on a recurring basis to evaluate controls
over and test the propriety of payments from the Federal
Buildings Fund.  Our review disclosed that utility bills were not
entered into the system promptly resulting in a loss to the
Government of $13,000 and that contoIs over vendor payments were
weak.




                                 10
      IV.   REVIEW OF LEGISLATION AND REGULATIONS


-Recommended the creation and implementation of a GSA regula-
 tion requiring prospective contractors to certify whether
 they have been indicted/convicted of certain criminal
 offenses, or have been debarred, suspended or defaulted in
 the past three years.

 On April 17, 1980, GSA adopted our recommendation and
 commenced the implementation of the regulation as a standard
 requirement of all solicitations for goods and services in
 excess of $10,000.

 The further implementation of this certification requirement
 as a standard clause in all contracts governed by the
 Federal Procurement Regulations is currently under study.

-Examined and supported amendments to the Federal Property
 and Admininstrative Services Act of 1949 (HR 5381).  These
 amendments would expand our audit authority and enable GSA to
 engage in effective oversight of most civilian Federal
 contracts.   We presented testimony in favor of this legisla-
 tion in October 1979.

-Examined proposed GSA revisions to internal Standards of
 Conduct.  We recommended that a number of specific changes
 be made in the Standards of Conduct; however, few of our
 recommended changes are reflected in the final Standards of
 Conduct.  Of particular concern is the fact that our recom-
 mendations for narrowing the exceptions to the prohibition
 against accepting gratuities were not accepted.

-Examined proposed amendments to the Federal property Manage-
 ment Regulations. The proposed amendments delegated to tenant
 agencies the authority to place orders up to $1000 per order
 against GSA Public Building Service term contracts for
 repair and alteration of office space.  We recommended
 that the proposed amendment not be adopted because (1) it
 conflicted with the basic intent of the laws which
 established GSA, and (2) it would exacerbate many of the
 problems GSA has experienced regarding term contracts.
 Nevertheless, the amendments were adopted; however, most of
 our recommendations for combating fraud in their implemen-
 tation were accepted.

-supported proposed legislation (S. 2328) which would allow
 GSA to enter into multi-year contracts for building janitor-
 ial and protective services.




                            11
-Recommended technical amendments to proposed legislation
 regarding the establishment of new policies toward public
 buildings (S. 2080).

-Examined and approved the Department of Justice's proposed
 guidelines regarding Inspector General subpoenas under the
 Right to Financial privacy Act.

-Recommended to the Executive Group to Combat Fraud and Waste
 in Government, the amendment of 18 USC 1114 to encompass
 assaults upon Inspector General investigative personnel.

-Examined and supported proposed legislation   (S. 1878)   expand-
 ing the power of the Comptroller General.

-Examined the proposed revisions to the Federal criminal code
 currently under study by the Senate and House.  In conjunc-
 tion with the Executive Group to Combat Fraud and waste in
 Government , we generally supported the proposed amendments
 before the Senate.  The House version substantially weakens
 existing laws which apply to fraud and cannot be supported
 in its presently proposed form.

-Examined and supported proposed legislation (S. 240)
 establishing criminal penalties for computer related crime.

-Examined and supported in principle proposed legislation
  (HR 6010) regarding payment of rewards for waste and fraud
 informers.




                            12
          V.   ACTIVITIES AND PERFORMANCE INDICATORS


This section provides a general overview of our activities, and
addresses our Audits, Investigations and Inspections programs.


                               AUDITS


A.   AUDIT REPORTS ISSUED



Ninety-five internal audit reports were issued.  The distribution
of these reports by Service or Staff Office is as follows:




                                                Reports Issued
                                                Number  Percent

     Office of Management, policy & Budget        14     15
     Public Buildings Service                     32     34
     Federal Supply Service                       24     25
     Federal property Resources Service            9      9
     Transportation and Public Utilities
        Service                                    9      9
     Automated Data and Telecommunications
        Service                                    4      5
     National Archives and Records Service         1      1
     Other (Presidential Commissions, etc.)        2      2
        Total                                     95    100

                            F gure V.l


     2.   External (Contract Audit Reports)

One hundred and forty contract audit reports were issued
including 13 reports in which the audit was performed by the
Defense Contract Audit Agency (DCAA).  A summary of these reports
follows:




                                 13
                                                     Recommended
                                        Number of      Savings
                                         Reports    (in thousands)

     construction
       Architect-Engineer proposals          40      $  1,060
       Claims                                20        10,746
       Initial pricing                       11           580
       Change Orders                         11         1,400
       Construction Management                7           171
          Total Construction                 89      $ 13,957

     Other
       price Reduction/Defective pricing      7      $  4,136
       Time and Material Contracts            7           393
       Lease Escalation                       6         6,474
       Preaward proposals                    26           976
       Cost Type Contracts                    2           127
       Other                                  3           220
           Total Other                       51      $ 12,326

       Total - Contract Audits              140      $ 26,283


                           F gure V.2

B.   STAFFING

The professional staff was increased from 158 as of October 1,
1977 to 238 as of March 31, 1980.  There were 20 commitments as
of March 31 against a current ceiling of 290.  This ceiling will
be reached by the end of the fiscal year.

C.   STAFF DEVELOPMENT

Orientation training was provided for 43 new employees.
Additional training was provided for field audit office
directors, division directors, and program directors to intensify
their skills in fully developing and presenting results of
audits.  Design of a comprehensive in-house training plan with
practical application to GSA operations was undertaken with
actual classroom training to commence in the third quarter of
1980.   Five percent of available staff resources will be used
for this critical function.

D.   AUDIT MANAGEMENT

Substantial emphasis was placed on coordinating audit efforts to
ensure concentration on areas of demonstrated vulnerability.
Results of more effective audit management are evident when
results for the current six-month period are compared to the
prior six months.

                                 14
E.   AUDIT SAVINGS

Many of the findings contained in internal audit reports cannot
be converted to dollar savings.  However, this doe~ not detract
from the significant impact they have on strengthening internal
controls, increasing the economy and efficiency of operations,
and insuring that program objectives are accomplished.

On the other hand, contract audit efforts normally result in
recommended savings to the Government.  These are usually of the
cost avoidance type, since th. Government has not paid out the
money for delay claims, proposals by architect-engineer firms, or
other types of audits where the audit effort precedes
negotiation, settlement and disbursement of funds.

The recommended savings for the last six months were more than
$26 million.   Because of time required for negotiations, and in
many cases, litigation, the exact amount of the actual savings
related to the recommended $26 million may not be known for
several years.   However, historically, about 60 percent of the
recommended savings have been realized.    Following are brief
descriptions of some of our more significant contract audits:

     1.   Audits of Project Claims on the Federal Courthouse and
          Related Facilities in San Diego, California

Several audits were conducted on the $7.9 million delay claim
submitted by the prime and several major subcontractors on this
construction project which had an initial contract price of $37.8
million.  The audit reports relating to this claim recommended
adjustments in this claim of $6.4 million, for an average reduc-
tion of 81 percent in the claimed costs.

     2.   Rejection of the Claim on the Central Intelli2ence A2encx
          (CIA) printin2 Plant, McLean, Vir2inia, Project

A proposed construction contract delay claim for $200,000 was
submitted to the Office of Audits for scheduling an audit.  The
increased costs were on the fixed price contract for construction
of a printing plant at the CIA headquarters in McLean, Virginia.
In less than an hour, our Office had reviewed the claim and wrote
a letter questioning the entire claim based on provisions of the
Federal procurement Regulations and statute of limitations.

     3


An audi of a $1.6 million claim for alleged Government caused
delays during the constr ction of the Instructional Resources
Center at the Universi y of the District of Columbia resulted in
a $1 3 million reduction of claim costs.  The claim was  ubmitted
on a $5   million fixed price contract for the proje t   The
contractor alleged in  t   laim that the Government delayed the
proj ct tarting date     285 calendar    s which re ulted in a
long r contract pe iod and pushed the performance of concret

                                 15
work to winter months.  The recommended savings resulted from
overstated direct costs, unabsorbed overhead, interest and sub-
contractor costs.

    4.   Social Securitx Administration's Metro West   Buildin~


Audits of claims totaling over $1.8 million resulted in the
claims being reduced by over $1.5 million.  Both claims cited
Government caused delays in the design and construction phases of
the project.  The audit report on the claim for the delay during
the design of the building stated that the loss was due to
obvious underbidding in the joint venture's cost.  The report on
the construction claim disclosed correspondence between a prime
contractor and a subcontractor which indicated many of the
claimed delays can be attributed to the deficiencies of the sub-
contractor and not to the Government.

    5.   Post Award of a MultiEle Award Contract

A post award audit of a multiple award contract for computer
equipment recommended a refund to the Government of $3.5 million.
The recommendation was based on the contractor's failure to
disclose (1) complete and accurate pricing information to the
Government at the time of negotiations, (2) deviations from
disclosed pricing policies, and (3) billing errors.

    6.   P!ice Reduction/Defective pricing Audit

A price reduction/defective pricing audit of a multiple award
contract for the sale and maintenance of calculators and
accounting systems recommended a refund to the Government of
$358,000.  The recommendation was based on the price reduction
clause of the contract which requires the contractor to disclose
changes to the pricing policies which were used to establish the
Government's contract price.

    7.   Lease Escalation proeosal Audit

An audit of a $5.2 million lease escalation proposal questioned
$1.6 million primarily because the estimated building operating
cost increases were overstated.  The proposal was submitted pur-
suant to the operating cost and real estate tax escalation
clauses of the lease which provide for rental rate adjustments
after the initial five years of Government occupancy of the
building.

    8.

An evaluation of a $5.3 million lease escalation proposal
questioned $2.3 million of the proposed renbal increase   The
lessor's method of computing the increase was contrary to the
terms of the lease, resulting in overstated operating costs.  The
proposal, submitted pursuant to the terms of the existing lease

                                16
for a five~year period, was based on the lessor's operating cost
and real estate tax increases incurred during the initial term of
the lease.

      9.   Audit of Utilities Billed Under an Existing Lease

An audit of the cost of utilities billed under an existing lease
resulted in a recommended refund to the Government of $2.5
million.  The lessor's overbilling occurred during the five-year
period of August 1973 through December 1978 and involved the
Government's electricity and chilled water costs.

     10.   Audit of a Time and Materials Contract

An audit of a time and materials contract for repair and calibra-
tion of precision instruments resulted in our questioning the
entire contract billing of $93,319.  Contrary to the requirements
of the contract, the contractor did not maintain or had
discarded documentation to support costs incurred.  A com-
parative analysis of the contractor's labor and sales data raised
questions as to the propriety of the billings.

     11.   Preaward Evaluation of pricing Proposal

A preaward evaluation of a pricing proposal submitted for a
multiple award contract for photographic equipment, showed that
the offeror failed to disclose to the contracting officer
complete and accurate discount policies and practices related to
educational institutions, original equipment manufacturers,
distributors, and users.  The offeror also did not fully disclose
the terms of his cash and prompt payment discount plans.  The
audit could result in the Government obtaining as much as a 20 •
percent reduction in the pricing arrangement for this contract,
estimated to be worth $800,000.

F.    INTERDISCIPLINARY REVIEW

As noted above, our Management Review Staff completed its first
interdisciplinary report on term contracts.  Although
acknowledging that term contracting can be an economical means of
obtaining needed services, this report recommended that manage-
ment take action to define the proper limits of this type of
procurement, emphasize independent physical inspection of the
services obtained through term contracting, seek to increase
competition in term contracting, provide training for personnel
in the use of term contracting, and take firm administrative
action in enforcing term contracting guidelines.

A second interdisciplinary review is currently underway con-
cerning the Self-Service Store program in GSA.   The Management
Review Staff anticipates that a report on this effort will be
issued in the third quarter of Fiscal Year 1980.

                                  17
                                   INVESTIGATIONS



A.   INVESTIGATIVE WORKLOAD ACTIVITY

     1.   Cases opened and         close~


There were 338 new investigative cases opened and 339 investiga-
tive cases closed involving GSA personnel or persons and firms
doing business with GSA.  See Figure V.3.   As a result of a con-
tinued emphasis on white collar crime, of the 338 cases opened,
189, or 56 percent, involved white collar crime.



                         CASES OPENED AND CLOSED
                   BY CATEGORY OF INVESTIGATIVE MATTER


              Case    Cate~0!.1.                       Opened   Closed

          White Collar Crime
            (fraud, bribery, embezzlement,
           false claims)                                 189      197

          Crime in GSA-Occupied Space                     46       63

          Contractor Suspension/Debarment                 24       12

          Employee Misconduct                             41       44

          proactive Investigations                        13        0

          Others                                          25     --11
                   TOTAL                                 338      339

                                     Figure      V.3




                                            18
    2.   Pending cases

As of March 31, 1980, there were 620 investigative cases pending.
Of the 620 cases pending, 409, or 66 percent involved white collar
crime investigations.




                           CASES PENDING
                 BY CATEGORY OF INVESTIGATIVE MATTER

         Case Category                          Pending

    White Collar Crime
      (fraud, bribery, embezzlement,
     false claims)                                409

    Crimes in GSA-Occupied Space                   56

    Contractor suspension/Debarment                53

    Employee Misconduct                            44

    Proactive Investigations                       22

    Other                                          36

         TOTAL                                    620

                           Figure V.4

    3.   Administrative and other sanctions

The results of our investigations have contributed to the process
of imposing administrative sanctions against GSA employees and
contractors by supporting GSA managers in their efforts to pro-
tect GSA programs.  Our efforts are illustrated in part by the
following figures showing nationwide debarments, suspensions,
adverse actions, and monetary savings and recoveries:


         Total Debarments                                 20
         Total Suspensions                                 8
         Related Savings and Recoveries
            To the Government                  $31S,667
            To Others                          $ 18,455
            (Employees of private firms who
            were underpaid by contractors)

                            Figure V.S


                                  19
In addition to these accomplishments, we have referred 168
instances of alleged wrongdoing or management deficiencies
stemming from criminal investigations involving GSA employees,
other Government agency employees, or firms and their employees,
for administrative action or informational purposes to central
office and regional officials.

Of the l6S'referrals, administrative action or corrective action
was taken in 84 instances1 management determined further action
was not requir.d in ~~ instances.  The remaining 64 referrals are
pending consideration of administrative action.




                              \




                                           \

                                                   \




                                           ,
                                           i"
                                             .




                               20
                      NUMBER AND CASE CATEGORY
             REFERRED BY PROGRAM AREA FOR ADMINISTRATIVE
                  ACTION OR INFORMATION PURPOSES TO
                 CENTRAL OFFICE AND REGIONAL OFFICIALS
                 October 1, 1979 through March 31, 1980


                ADTS   FPRS    FSS      NARS   OAD   PBS   TPUS   TOTAL

White
Collar
Crime            1      5       17        2           29    27      81

Crime in
GSA-Occupied
Space                   2           3     2           11     6      24

Contractor
Suspension/
Debarment        1      2           5                  7            15

Employee
Misconduct       1      1       4         1           33     1      41

Other            1                              3      2     1       7

   TOTAL         4     10      29         5     3     82    35     168
                            -----
                               Figure V.6




                                21
B.   l!YESTIGATIVE     RESU~


     1.   Summary of matters referred to prosecutive authorities
          and resulting prosecutions and convictions

          a.   Previous Reporting Period (April 1, 1979 -
               September 30, 1979)

At the close of the last reporting period, 14 of the cases
referred to prosecutive authorities during that period remained
open.  The current status of those 14 cases is as follows:

               - Six cases have resulted in nine indictments, leading
                 to four guilty pleas and two convictions (trials
                 on the three remaining indictments are still
                 pending);

               -   Five cases still remain open;

               -   Three cases were declined for prosecution.

          b.   present Reporting Period

We referred 23 cases to the Department of Justice and two cases
to local prosecutive authorities for prosecutive consideration.
Of the 25 cases referred, six were declined.  The 19 remaining
cases have thus far resulted in two arrests, three indictments,
and three guilty pleas.  A brief synopsis of some of these cases
follows:

               -   Two manufacturers under contract with GSA offered
                   bribes of $1,000 in cash and $200 per month to
                   influence the official decisions of quality
                   assurance specialists.  One of the manufacturers
                   has so far been arrested and the other was
                   indicted, entered a guilty plea, and was sentenced
                   to one-year probation.

                   A firm under contract with GSA to recap and repair
                   pneumatic tires allegedly overcharged the
                   Government in excess of $150,000 for unnecessary
                   and fictitious repairs and may have profited by
                   more than $56,000 through the use of improper
                   material.

               - A large contractor was found to have overbilled GSA
                 for a number of years by billing for non-provided
                 services.  The extent of overbilling is believed
                 to exceed $100,000.

               -   A repair and alterations contractor allegedly sub-
                   mitted fraudulent invoices totaling approximately
                   $50,000 for work not performed as requested by work
                   orders.

                                    22
            - A guard contractor allegedly overbilled GSA for
              non-performance on a service contract in the amount
              of $50,000.  The firm has been suspended from doing
              business with GSA while the investigation
              continues.

            -   A GSA employee allegedly conspired with a private
                party in the theft and sale of Government office
                machines for approximately $40,000 and sold the
                private party more than $34,000 worth of Government
                parts for $10,000.  He also conspired with another
                GSA employee in the theft and sales of Government
                typewriters for $1,750 to another private party.

            -   An automobile dealership remitted seven insuf-
                ficient personal checks in an amount exceeding
                $17,000 for the purchase of seven GSA surplus
                vehicles.  Two partners in another automobile
                dealership purchased 12 GSA surplus vehicles by
                submitting 12 insufficient drafts in the total
                amount of approximately $17,000.

            -   A motor vehicle service contractor allegedly per-
                formed unnecessary repairs on Government vehicles
                and billed GSA about $2,000 for parts and labor
                which should have been covered under the warranty
                provisions of the contract.

            -   A GSA employee allegedly ran a personal business
                from his GSA office during working hours and
                allegedly used GSA employees, equipment, and
                supplies in the furtherance of his private
                business.

            -   A former GSA contract specialist who was directly
                involved in the design, negotiation, and pricing of
                a $500,000 guard service contract prior to his
                retirement, represented the contractor in
                subsequent negotiations on that contract within a
                year of his retirement.

            -   A county official obtained donated surplus Federal
                property in his official capacity and turned it
                over to two firms with which he was employed for
                their business use.  The verified loss amounted to
                more than $75,000 for the machinery alone.
                Prosecution was declined because restitution was
                made; administrative action is pending.

    2.   Indictments and convictions

Our investigative efforts aided in the indictment of 37 persons
or firms doing business with GSA.  Of the 37 persons or firms
indicted, 12 were GSA employees.  As of March 31, 1980, 13 GSA
employees and 22 persons or firms were convicted.  Fines were
imposed totaling over $100,000 and prison sentences were imposed
in several of these cases.

                                 23
Figure V.7 shows a breakdown of the status of criminal action
taken by region.

Figure v.a shows a breakdown of GSA employees indicted and con-
victed by job position.

Figure V.9 shows a breakdown of firms, their officials, and their
employees, private citizens, and employees of other Federal agen-
cies who were indicted and were convicted.

Figure V.10 shows the number of white collar crime cases
involving GSA employees, other agency employees, contractors and
their employees, and private citizens prosecuted by program area.




                               24
                                       STATUS OF CRIMINAL ACTION TAKEN
                                                 BY REGION

                                   October 1, 1979 through March 31, 1980


                                 Trial                                                  Sentences
Regions           Indictments   Pending     Convictions      Acquittals     Sentenced    pending

  1                    5           4              1                              1

  2                    4           1              7                              5          3

NC/3                  21           2             17               2             14          4

  4                    1                          3                              3

  5                    1                          1                                         1

  6                    3                          3                              3

  7

  8

  9                                               1                              1

 10                    2                          2                                         2

        Totals        37           7            *35               2            *27         10


 * Seven convictions and seven sentences were the results of indictments prior to this
      reporting     period.

                                                Figure V.7


                                                      25
               GSA EMPLOYEES INDICTED/CONVICTED
            October 1, 1979 through March 31, 19aO


                                           Trial
GSA Job Position             Indicted     pendin51   Convicted

PBS Contracting Officer             1                    1

PBS Buildings Manager               2                    2

PBS Custodial Work Inspector        1        1

PBS Maintenance Foreman             1                    1

PBS Electrical Foreman              1                    1

PBS Assistant Electrical
    Foreman                         1                    1

PBS Production Scheduling
    Assistant                       1                    1

PBS Federal Protective
    Officer                         1                    1

PBS Custodial Laborer               1                    1

FSS Contracting. Officer            1                    1

FSS Self-Service Store
    Manager                         1                    1

FSS Quality Assurance.
    Specialist                                           1

FSS Warehouse Foreman                                    1


        Totals                  12               1     *13


*   Two convictions were the results of indictments prior to
    this reporting period.

                             F gure V.8




                               26
                        FIRMS AND THEIR EMPLOYEES, AND
                        OTHER FEDERAL AGENCY EMPLOYEES
                          INDICTED/CONVICTED/ACQUITTED
                     October 1, 1979 through March 31, 1980



                                         Trial
Job position               Indicted     Pending   Acguitted   Convicted

Firms                          2           1                      2

Corporate Officers,
Employees, principals
and Agents                    19           4          2          17

Private   Citiz~ns             2           1                      1

Other Government
Agency Employees               2                                  2

           TOTALS             25           6          2         *22


*Five convictions were the results' of indictments prior to this
 reporting period.


                             Figure V.9




                                   27
              NUMBER OF WHITE COLLAR CRIME CASES PROSECUTED
                            BY PROGRAM AREA
                  October 1, 1979 through March 31, 1980




                   ADTS     FPRS           FSS   PBS   TPUS   TOTALS

GSA
Employees                                   2     9             11

Other
Agency
Employees                     1                   1              2

Contractors
« Employees          3        2             8     6      2      21

Others                        1             1     1              3

White
Collar
Crime                3        4            11    17      2      37



                                  Figure V.10




                                      28
                               INSPECTIONS


A.    SIGNIFICANT ACTIVITIES

Important inspections activities, by programs,    included:

     -Provided continuing technical support to the Federal Bureau
      of Investigation (FBI), Federal grand juries and to United
      States Attorney Offices in the Washington, D.C. metropolitan
      area regarding investigations in the buildings management and
      leasing programs.

     -Continued other independent inspections of contracts in the
      buildings management and leasing programs.

     -Began the development of a cross-reference identification
      system.   This system will assist the Office of Inspections in
      investigating possible bid-rigging and fraudulent contractors
      on a nationwide basis.

     -Initiated a control system whereby the GSA Regional Offices
      are required to submit copies of all contracts awarded by
      their Regional Field Offices.  Each of these contracts will
      be reviewed and inspected where appropriate.  This program
      will result in an additional deterrent to abuses in
      future contracts.

     -Reviewed a substantial number of open-end purchase orders
      written during 1975, 1976 and 1977 to local building supply,
      plumbing supply, electrical supply, and similar companies,
      which have produced indicators that certain items were
      purchased for use in the private homes of former GSA
      employees or for other than Government use.

     -Provided ongoing preaward review of term contracts and other
      major repair and improvement contracts to be awarded in the
      National Capital Region.

     -Formed and developed the Federal Supply Service/
      Transportation Public Utilities Service Inspections Division.

     -Conducted an extensive three-month training program for new
      employees, which included a combination of classroom instruc-
      tion and visits to field activities where the inspectors
      were familiarized with GSA program operations.   They also
      received refresher training in contracting, contract admini-
      stration, quality control, fraud detection and prevention,
      financial investigative techniques and interviewing
      procedures.




                                     29
     -Developed a detailed vulnerabirity assessment for the FSS
      program area.  Based on this assessment, a Fiscal Year 1980
      action plan for inspections has been developed.

     -Continued intensive recruiting for professional engineers,
      realty specialists, management specialists, and contract/
      quality assurance specialists.

B.    INSPECTIONS WORKLOAD ACTIVITY

      1.   Leases Reviewed

There were 35 leases reviewed with a total value of $8,440,404.
The total square footage of these leases exceeded 1,500,000
square feet.  Of the 35 leases examined, findings on four have
been forwarded to a united States Attorney for action.  The find-
ings on 21 other leases have revealed varying degrees of misman-
agement or possible improprieties and are being investigated
fuxther.

Five PBS lease appraisals were reviewed for a value of $529,376
and amounting to 153,396 square feet; additionally, another lease
appraisal for $263,124 involving 78,208 square feet was
completed.

      2.   Construction program

Three major construction programs are under review.   The total
cost of these projects is $93 million.  Findings to date indicate
varying degrees of mismanagement and impropriety.   Ten pro-
fessional service contracts have been reviewed, six of which are
being further investigated due to questionable management prac-
tices or possible improprieties.

      3.   Buildings Operations Program

Over 1,500 contracts issued in support of buildings operations
have been reviewed.


C.   OTHER ACTIVITIES

Our efforts in assisting the Washington Field Office of the FBI
have resulted in the United States Attorney, Washington, D.C.,
filing felony charges against 11 individuals. These included:
three contractors involving some $516,000 in fraud: seven former
GSA employees who where involved in fraud totaling in excess of
$500,000 and one non-GSA agency employee (equivalent to a
GS-l5/l6) who pled guilty to charges of fraqd in the amount of
$10,000.  Five of these 11 individuals have been sentenced.   In
addition, one contractor and two former GSA employees who pled
guilty during the last reporting period (April 1 - September 30,
1979) were sentenced.


                                  30
VI.        SPECIAL EFFORTS TO CONTROL FRAUD, WASTE AND MISMANAGEMENT

      A.    SUBPOENAS

The administrative subpoena, authorized by Section 6(a) (4) of the
Inspector General Act of 1978, continues to be an indispensable
tool for the effective implementation of our investigative, audit
and inspection responsibilities.  During this period, 22 sub-
poenas were issued in aid of our efforts in the following areas:

            Procurement of Furniture             1
            Guard and Janitorial Contracts       5
            Office Mac~ine Repair Contracts      1
            Contractor Billing                   9
            Small Business Size Standards        5
            Sole Source Procurement

               TOTAL                            22

In addition, during the reporting period, two significant court
decisions broadly sustaining the enforceability of the Inspector
General subpoenas were issued.  First, in the United States
District Court for the District of Columbia, Art Metal-U.S.A.,
Inc., a Government contractor whose records had been subpoenaed
by our Office, brought a suit seeking to restrict the scope of
our subpoena requests, and challenging our authority to seek cer-
tain tax records and records of its subsidiary.  We moved to
dismiss the suit on jurisdictional grounds as well as on the
grounds that the documents subpoenaed were clearly within the
scope of the Inspector General's subpoena power.  The District
Court dismissed Art Metal's suit on jurisdictional grounds, and
held that any objections Art Metal had to the scope of our sub-
poenas could only be raised in the suits for judicial enforcement
of our subpoenas which we had initiated.   (Art Metal-U.S.A., Inc.
v Kurt W. Muellenber9, CA 79-3146, D.D.C., memorandum dated
January 25, 1980).

Shortly thereafter, in related litigation, Art Metal's substan-
tive objections to our subpoenas were rejected.   In two subpoena
enforcement actions, we had asked the Federal District Courts in
New Jersey and the Southern District of New York to enforce our
subpoenas issued to Art Metal, its subsidiary and their tax
accountant.  The District Court in New Jersey, in an important
decision, sustained our request for documents and affirmed in
broad terms, our authority, and therefore the authority of all
Inspectors General, to subpoena documents in the course of an
inquiry.   (United States v Art Metal~U.S.A., Inc., CA 80-21,
D.N.J., opinion dated February 27, 1980, appeal pending.)   In the
companion action in New York, which seeks the work papers of Art
Metal's tax accountant, the District Court issued a ruling on
April 30, 1980, enforcing our subpoena. (United States v
Cornick, Garber and Sandler, M 18-304, S.D.N.Y., 1980).


                                    31
B.   PROACTIVE INVESTIGATIONS

with knowledge of vulnerable areas in the following programs, 13
proactive inquiries were initiated to detect similar patterns of
fraud and abuse. Most inquiries were initiated with a two-
pronged approach:  the first area of the inquiry deals with the
award process and the second the performance of the contractor.
The program areas being reviewed are as follows:

     1.   Guard, Janitorial and    Movin~   Contracts

The coordination of investigations into criminal acts in the
award and administration of guard and janitorial contracts
continues. Over 12 criminal cases regarding contractor fraud are
currently under investigation, and seven cases have been referred
to the Department of Justice for criminal prosecution.

An investigation has also been commenced into weight-bumping by
contractors under contract to GSA for the moving of Federal
employee's household goods.

     2.   Carrier Related Thefts

The primary thrust of this inquiry is to determine whether supply
center personnel are conspiring with and accepting bribes or gra-'
tuities from freight carriers in the theft of materials from
Supply Distribution Centers.

     3.   Vehicle Repair and Maintenance Contracts

This inquiry includes a review of the award, administration, and
usage of these contracts.  Vulnerable areas include apparent
unnecessary repairs, false statements and invoices, vehicle
theft, and other areas which question the integrity of the
contract award and performance process.

     4.   GSA Quality Approved Manufacturers Program

The Quality Approved Manufacturers Program has responsibility for
assuring supplies accepted by GSA meet the quality required by
contract specifications without repeated inspections.  The objec-
tive of this inquiry is to identify areas of procedural weakness
in the quality assurance program and to detect instances where
GSA employees and GSA contractors who have taken advantage of
these weaknesses.

     5.   Electrostatic Painting Contracts

This area deals with contracts for the painting of metal fur-
niture by electrostatic spray process.  Past experiences with
these types of contracts disclose a limited number of contractors
with apparent corporate inter-relationships and poor performance
records.

                                    32
     6.   Building Manager Procurements

The objective of this inquiry is to examine the possibility of
collusion between GSA building managers and contractors.   The
major thrust of the inquiry is to examine more closely evidence
of poor work performance, inflated invoices, careless
inspections, and possible kick-backs and gratuities to GSA
employees for contract work not performed.

     7.   Repair and Maintenance of Manual and Electrical
          Typewriters, Adding Machines, and Calculators

This area addresses the performance aspect of these contracts
which are entered into on a yearly basis.  The Government is
billed by the contractors for labor performed and parts
installed.  Past performance indicates instances where the
Government has paid for parts which were never installed and
labor which was never performed.

C.   SUSPENSION AND DEBARMENTS

We are maintaining close liaison with GSA administrative offi-
cials and the Office of General Counsel to provide appropriate
support and assistance in suspension and debarment actions.
Attorneys from this Office have assisted attorneys in the Office
of General Counsel in the preparation of cases for the Board of
Contract Appeals and assisted in representing GSA in litigation
concerning suspension actions.

D.   REVIEW OF FURNITURE MANUFACTURER

As previously reported, we have been conducting an inquiry into
allegations of fraud and abuse in GSA's contractual relationship
with an office furniture manufacturer.

Recently, information relating to these allegations was for-
warded to the Commissioner of FSS to be used in determining
whether suspension or debarment actions against the contractor
should be instituted.  The Commissioner has not yet rendered a
final decision, our investigation continues.

E.   STOCKPILE PROCUREMENT

GSA procured titanium sponge at a cost of over $16 million.
Payment by the Government was made with excess materials
available under the Stockpile Disposal Program.   The contractors
were permitted to obtain payment in advance of titanium deliv-
eries provided that interest at the rate of six percent be paid
in cash to the Government.   For a brief period the value of
payment materials withdrawn exceeded the value of titanium sponge
deliveries.  As a result, interest charges accrued but were never
billed by GSA.     Our review of the program disclosed the failure
to bill the contractor.   As a result of our recommendation, the
contractor has been billed for $266,997.

                                 33
F.   SMALL BUSINESS PROBLEMS

During an investigation of GSA contracting problems it was dis-
covered that GSA contracting officers rarely protested the size
of any bidder, even when they had evidence that the bidder had
exceeded SBA size standards and was therefore ineligible for
award of a small business set aside contract.  We protested the
size of GSA's largest guard contractor and largest janitorial
contracto~ after audits revealed that both contractors were using
an accounting method which excluded reimbursable costs from their
annual receipts in order to appear eligible for small business
set-aside contracts.  The SBA Size Appeals Board affirmed this
Office's position in both cases, finding that an accounting
method that excluded reimbursable costs was not an acceptable
method of accounting for annual receipts for size determination
purposes.  The Board agreed that the primary purpose of the
annual receipts standard was to consider in a practical and
realistic manner the present magnitude of business operations.

This Office identified a further SBA-related problem.
Contractors who were found by the SBA to be other than small
businesses and warned not to self-certify as a small business
often would move to another GSA region or contract with another
Federal agency and continue to self-certify.  The SBA had no
power to suspend or debar contractors for such false certifi-
cations.  Believing that such certifications undermined the
integrity of the small business program by depriving legitimate
small businesses of contracts, this Office investigated and has
referred to the Department of Justice a case of false certifi-
cation of small business status.

G.   UTILITY REVIEW

A nationwide statistical sampling of GSA leased buildings that
also have commercial--or non-Government--tenants occupying space
within the building was initiated in October 1979.  The purpose
of the survey is to determine the proportion of those buildings--
on a nationwide and regional basis--that find non-Government
tenants consuming electricity paid for by GSA.

To date, each of GSA's eleven Regions have established survey
teams with a survey manager to head the team and certify the
results of the survey.  Each Region has submitted to this Office
a  list of GSA leased buildings that also have non-Government
occupants.

From each list a statistical sample of a number of buildings
selected will be tested by the Regions.  Tests are expected to
commence by May 1, 1980.




                               34
H.   WHISTLE-BLOWERS HOTLINE

Since Janaury 1979, a GSA whistle-blowers hotline has been
maintained.  The telephone numbers, in addition to a post office
box number, have been extensively advertised.   Since the last
report we received 45 pieces of mail, 71 referrals from GAO and
600 phone calls.

I.   REVIEW OF CONTRACT FOR SENIOR EXECUTIVE SERVICE (SESL
     TRAINING

This Office performed an extensive review of the contract which
GSA awarded a consultant to train its senior employees in the
implementation of the new Senior Executive Service system.   The
result was a report to the Administrator which focused on whether
the contract was awarded in compliance with statutory and regula-
tory procedures and whether the contractor satisfactorily met the
contract requirements.   The report concluded that there had been
no violation of any statutory or regulatory mandate in the
contracting procedure and that the contractor had performed
satisfactorily.   There were two caveats, however.  First, the
report reaffirmed that a contracting officer must have over-all
authority regarding contract implementation, even if senior GSA
employees are interested in the contract.   Second, GSA employees
at all levels must constantly be on guard against giving even the
appearance of favoritism in the award of contracts.

J.   CIVIL RECOVERIES

Attorneys with this Office continue to assist the Civil Division
of the Department of Justice and various United States Attorneys
in the preparation of civil actions against those who have
defrauded GSA.

The Department of Justice settled civil claims against six former
GSA employees.  All of these former employees had previously pled
or been found guilty of fraud-related crimes against GSA.  The
total amount recovered through these settlement agreements was
$25,000.

On March 17, 1980, nine separate civil actions were filed in the
united States District Court for the District of Columbia against
nine former GSA, PBS employees and 19 contractors and contractor
Officers/employees.  The total amount sought in these suits is
considerably in excess of $10 million.  A suit has also been
filed against a former GSA employee in Federal court in
Baltimore, Maryland, for an amount in excess of $36,000.

This Office is also helping in the coordination of contractual
set-off remedies against contractors who have engaged in criminal
or civil fraud.




                                35
APPENDIX




   36
                           REPORT REGISTER
                           CONTRACT AUDITS

                                                                Date of
Number                                 Title                    Report

13-9299-022         Preaward Proposal for A/E Services
                    L. E. Tuckett and Thompson, Architects
                    Contract No. GS-02B-17,854                 10/03/79

13-9529 -03 3-D     Pre award Evaluation of A/E Pricing
                    proposal, Automation Industries, Inc.
                    Vitro Laboratories Division, Contract
                    No. GS-03B-88241/89047                     10/04/79

13-9469-088         Pre award Evaluation of Pricing Proposal
                    for Term Contract, Hoeffel, Torno,
                    Nester and Associates, Project
                    NO. Z-CO-79-042                            10/09/79
13-9539-065         Pceaward Evaluation of Pricing
                    Proposal, Hemphill Contracting Co. I
                    Solicitation No. GS-06B-73710 (NEG)        10/10/79

26-9485-113-D       Evaluation of Price Proposal, PRC
                    Data Services Company, A Division
                    of Planning Research Corporation,
                    McLean, Virginia                           10/10/79
14-9029-099         Revised Claim for Increased Costs,
                    Huber, Hunt & Nichols, Inc.,
                    Contract No. GS-09B-CO-7002-SF             10/12/79

1 3- 9 298 -0 2 2   Pre award Proposal for A/E Services,
                    Stetson Partnership/Dale Engineering
                    Co., Contract No. GS-02B-17,851            10/15/79

2F-00122-11-11      Systans Survey of Safeguard
                    Maintenance Corporation                    10/15/79

16-9179-033         Preaward Evaluation of Change Order
                    Proposal, The Sherman R. Smott Co.,
                    Inc., Contract No. GS-03B-78055            10/16/79
25-9518 099-D       Evaluation of Price Proposal,
                    Kass Management Services                   10/16/79
25-9538-066         Preaward Evaluation of Pricing Proposal,
                    Ridley's Southside Janitorial Service,
                    Inc., Contract No.  GS-06B-50077-01        10/16/79

22-9066-100         Requirements Contract for Preventative
                    Maintenance, Inspection, Repair, and
                    Overhaul of Government-owned Vehicles,
                    C&W Enterprises, Fairbanks, AK
                    Contract No. GS-I0W-85695                  10/18/79




                                 37
                                                             Date of
Number                           Title                       Report

16-9457-055      Preaward Evaluation of Pricing
                 Proposal, Ellis/Naeyart/Genheimer
                 Associates, Inc., Proposal No.
                 GS-05BC-90436                              10/19/79

l3-9536-033-D    Preaward Evaluation of Pricing
                 Proposal, TOC Managemen t Corporation/
                 Travenca Development Corporation,
                 Joint Vent ure                             10/22/79

l7-9440-033-D    Preaward Evaluation of Pricing
                 Proposal, East Atlantic Construction
                 Co., Inc./Areawide Corporation,
                 Joint Vent ure, Contract No.
                 GS-03B-78440                               10/22/79

17-9482-033      Pre award Evaluat ion of Pr icing
                 Proposal, Tyroc Construction Corp.,
                 Contract No. GS-03B-88262                  10/23/79
IF-00019-08-08   Preaward Evaluation of Pricing Proposal
                 for Term Contract Case, Lowe and Hart,
                 Inc., Project No. Z-UT-79-059              10/23/79

14-9510-044      Audit of Change Order Proposal,
                 #1 ABCO Builders, Inc., Richard B.
                 Russell Federal Building & U.S.
                 Courthouse, Contract No. GS-04B-77002,
                 Atlanta, Georgia                           10/24/79

13-9302-022      Preaward Proposal for Architect/
                 Engineer Serv    s, Lawrence Picone   &
                 Associates, Inc., Contract No.
                 GS-02B-17852 (NEG)                         10/24/79

13- 9541-066     Preaward Evaluation of Pricing
                 Proposal, George Butler and Associates,
                 Inc., Kansas City, Missouri                10/25/79

14-9018-055      Claim for Increased Costs Inland-
                 Ryerson Contruction Products Company
                 Subcontractor to OW!2ns-Corning
                 Fiberglas and Wolff and Munier, Joint
                 Venture, Contract No. GS-00B-01141         10/25/79

22-9512-032      Time and Material Contracts, Kovatch
                 Truck Center, Contract Nos.
                 GS-03W-70301, GS-03W-20064, GS-03W-20119   10/25/79




                                38
                                                                      Date of
Number                                       Title                    Report

17-9527-033          Preaward Evaluation of Pricing
                     Proposal, Lee Washington, Inc.,
                     Contract No.  GS-03B-78281 "NEG"                10/26/79

13-9301-022          Audit of Preaward Proposal for A/E
                     Services, Kideney, Smith, Fitzgerald,
                     Laping, Partnership, Contract No.
                     1-9301-022                                      10/29/79

13-9525-033          Preaward Evaluation of A-E Pricing
                     Proposal, v~anchul, Lee Associates, P.C.
                     Contract No. GS-03B-89011                       10/31/79

17-9497-033-D        Preaward Evaluation of Pricing Proposal
                     Star City Steam Cleaning, Incorporated,
                     Contract No. GS-03B-88135                       10/31/79
13-9300-022          Preawa rd Proposal for A/E Serv ices,
                     Bogen, Johnston, Lau, and Jenal, P.C.
                     Contract No. GS-02B-17853                       11/02/79

23-9382-116          Price Reduction and Defective Pricing
                     Review, Kreonite, Inc. I Wichita, KS            11/06/79

IF-00020-08-08       Preaward Evaluation of Pricing
                     Proposal for Term Contract, Henningson,
                     Durham & Richardson, Inc. of Colorado,
                     Project No. Z-CO-79-057                         11/07/79

22-9479-114          Buy American Certification, Lanier
                     Business Products, Contract No.
                     GS-O OS- 920 12                                 11/08/79

2 3- 92'7 6 - 0 99   Pr ice Reduct ion and Defect ive Pr ic ing I
                     Tran Telecommunications Corp.,
                     Marina Del Rey, California
                     Contract No. GS-09S-37443                       11/08/79

26-9514-099          Lease Escalation Proposal, Eleven
                     Triple Seven, Lease No. GS-09B-075993           11/13/79

13-9460-055-D        Preaward Evaluation of Pricing
                     Proposal, Roy F. Weston, Inc. I
                     Proposal No. GS-05BC-90422                      11/15/79

IF-OOO 21-08-08      Preaward Evaluation of Pricing
                     Proposal for Term Contract,
                     l1'1JM - Ph ill ip s-Re is te r-Hal ey, In c.
                     Project No. Z-CO-79-056                         11/16/79




                                        39
                                                                   Date of
Number                                     Title                   Report
2F-OOl16-06-06        Preaward Evaluation of Pricing
                      Proposal, Glow Janitorial and
                      Cleaning Service, St. Louis, MO             11/16/79

2F-OOl15-07-9 7       Preaward Evaluation of Pricing
                      Proposal, John Baker Janitorial
                      Services, Inc., Contract No.
                      NEG-GS-07B-020472                           11/19/79

25-9535-100           Preaward Evaluation of Pricing
                      Proposal, Special Bu i l ding Maintenance
                      Co., Contract No. GS-IOB-50431-01           11/19/79
28-9533-113-D         Preaward Evaluation of Pricing
                      Proposal, Norden Systems, Inc.,
                      Solicitation No.
                      GSC-CDPS-C-00013-N-7-11-79                  11/20/79
IB-O 0113-06 -0 6     Pre award Evaluation of Pr icing
                      Proposal, Peckham, Guyton, Albers,
                      and Viets, Inc., St. Louis, Mo.             11/21/79
2F-00121-06-06        Preaward Evaluation of Pricing
                      Proposal, Syl vester James and Sons
                      Maintenance Service, Inc.,
                      Kansa s Ci ty, Kansas                       11/21/79
2H-OOIII-OO-26H       Evaluation of Computer Personnel
                      Hourly Rates Proposed, University
                      of Cincinnati, Southwestern Ohio
                      Regional Computer Center, Contract
                      No. GS-05S-10458, Modifications
                      10 and 11                                   11/21/79
14-9246-099           Claim for Increased Costs, Lord
                      Electric Company, Inc., Subcontractor
                      to Huber; Hunt & Nichols, Inc.,
                      Contract No. GS-09B-C-7002-SF               11/26/79
2G-O 0118 -00- 2 6D   Review of Engineering Change Proposal,
                      AM General Corporation, Contract
                      No. GS-00S-30746                            11/26/79
23-9308-011           Pr e Reduction and Defective Pricing,
                      Dig i tal Equipment Corporation,
                      Contract No. GS-OOC-01227                   11/27/79
2G-0013 2-00-2 6D     Review of Engineering Change Proposal~
                      AM General Corporation, Contract
                      No. GS-00S-78663, Modifications
                      POOOO 2 and PODOD3                          11/28/79


                                     40
                                                                    Date of
Number                                       Title                  Report

14-9446-033-D            Claim for Increased Costs, Gilles
                         and Cotting, Inc., Contract No.
                         GS-O OB-02872                             11/28/79

IF-00117-0 2-02          Preaward Evaluation of Pricing for
                         Cost Management Services, O'Brien-
                         Kre i tzberg & As soc., Inc., Contract
                         No. GS-02B-17858                          11/29/79
14-9483-033              Claim for Increased Costs, Donohoe
                         Construction Co., Inc., Contract
                         No. GS-03B-78366                          11/30/79

16-9230-022(A)           Claim for Construction Change,
                         Kalisch-Jarcho, Inc., Subcontractor
                         to the P. J. Carlin Construction Co.,
                         Inc., and Atlas Tile and Marble Works,
                         Inc., (Joint Vent ure), Contract No.
                         GS-02B-16,835, Change Order No. 297       11/30/79
16 - 923 0 -0 2 2 ( B)   Claim for Construction Change, Norkin
                         Plumbing Co., Inc., Subcontractor to
                         the P. J. Carlin Construction Co., Inc.
                         and Atlas Tile and Marble Works, Inc.
                         (Joint Venture) Contract No.
                         GS-O 2B-16, 835                           11/30/79

1 F-O 0014-0 7-0 7       Preaward Evaluation of Pricing
                         Proposal, G&H Hechanical Contractors,
                         Inc., Contract No. GS-07B-30696           12/05/79
16-9355-042              Proposed Costs for Extens ion of
                         Construction Manager Contract,
                         Lasker-Goldman Corporation,
                         Contract No. GS-04B-16197                 12/07/79

IF-OOOO 3-01-01          Preaward Evaluation of Pricing
                         Proposal, Perry, Dean, Stahl &
                         Rogers, Inc"  Boston, Massachusetts       12/10/79

2F-00071-10-10           Preaward Evaluation of Pr ing
                         Proposal, C   n Se     s, Inc.,
                         Contract No. GS-I0B-50365-01              12/11/79




                                        41
                                                          Date of
Number                               Title                Report

16-9231-022(A)   CIa im for Construction Change,
                 Kalisch-Jarcho, Inc., Subcontractor
                 to the P. J. Carlin Construction
                 Co., Inc., and Atlas Tile and Marble
                 Works, Inc. (Joint Venture),
                 Contract No. GS-02B-16,835, Change
                 Order No. 129                            12/12/79
16-9231-022(B)   Claim for Construction Change,
                 Zwicker Electric Co., Inc.,
                 Subcontractor to the P. J. Carlin
                 Construction Co. , and Atlas Tile
                 and Marble Works, Inc. (Joint Venture)
                 Contract No. GS-02B-16835, Change
                 Order No. 219                            12/12/79

22-9072-044      Time and Material Contracts,
                 Pensacola Engineering Company,
                 Contract No. GS-04W-803Il and
                 Contract No. GS-4DPR-90082               12/13/79

16-9354-022      Proposed Costs for Extension of
                 Construction Manager Contract,
                 Lasker-G:::>ldman CorJ:X)ration,
                 Contract No. GS-02B-17148                12/14/79

16-9441-033      Preaward Evaluation of Change Order
                 Proposal, John J. Kirlin, Inc.
                 Contract No. GS-03B-88442                12/14/79
IF-00004-01-01   Preaward Evaluation of Pricing
                 Proposal, Alonzo B. Reed, Inc.-
                 Architects, Boston, Massachusetts        12/20/79
14- 9247 -099    Revised Claim for Increased Costs,
                 University Mechanical and Engineering
                 Contractors, Inc., A Subcontractor to
                 Huber, Hunt & Nichols, Inc. Under
                 Contract No. GS-09B-C-7002-SF            12/20/79
1S-00137-11-11   Preaward Evaluation of Pricing
                 Proposal, East Atlantic Construction
                 Company, Inc., Contract No.
                 GS-03B-88292                             12/26/79
2K-00139-00-04   Heview of Billings and Inventory
                 Controls, Social Issues Resources
                 Series, Inc., Contract No. NATFB 219
                 Contract No. NATFB 274                   12/31/79




                                42
                                                             Date of
Number                                 Title                 Report

12-S215-044(A)     Letter Rpt - Reimbursable Cost on the
                   Construction Management Contract,
                   Algernon Blair, Inc., & W. C. Hedrick,
                   Inc., A Joint Venture, Federal Office
                   Building, Jackson, Mississippi           01/04/80

2H-00124-00-26-D   Evaluation of Price Proposal,
                   Science Applications, Inc.               01/07/80

21-9436-115        Preaward Evaluation of Proposed Unit
                   Prices, Diebold, Inc., Solicitation
                   No. FCFO-CI-0115-lJ-2 0-7 9              01/09/S{)

12-9294-033        Construction Management Contract,
                   Turner Construction Company, Contract
                   No. GS-OOB-03443                         01/09/80

16-9369-109        Preaward Evaluation of Change Order
                   Proposal, Turner Construction Co.,
                   Contract No. GS-IOB-E-OlS97-00           01/14/80

IF-00002-01-01     Preaward Evaluation of Pricing
                   Proposal, Leon Pernice & Associates,
                   Inc., West Springfield, Mass.            01/17/80

2Q-00162-00-26-D   Evaluation of Price Proposal,
                   Compusc an, Inc.                         01/17/80

13-9504-099        Letter Rpt - Pre award Evaluation of
                   AE Pricing Proposal - Hellmuth,
                   Obat a & Kassabaum, Inc.                 01/18/80

13-9515-099        Letter Rpt - Preaward EValuation of
                   AE Pricing Proposal - Forrell/
                   Elsesser Engineers, Inc., San
                   Franci sco I CA                          01/18/80

13-9516-099        Letter Rpt - Preaward Evaluation of
                   AE Pricing Proposal   Hayakawa
                   Associates, San Francisco                01/18/80

13-9517-099        Letter Rpt - Pre award Evaluation of
                   AE Pricing Proposal - Engineering
                   Enterprise, Berkeley, CA                 01/lS/80




                                  43
                                                                      Date of
Number                                Title                           Report

14-9248-099           Claim for Increased Costs,
                      U. S. Elevator, Wholly-Owned Subsidiary
                      of Cubic Corporation, Subcontractor to
                      Huber, Hunt & Nichols, Inc., Contract
                      NO. GS-09B-C-7002-SF                           01/18/80

IF-OOl19-06-06-D      Preaward Evaluation of Pricing
                      Proposal, Denman Phillips Construction
                      Co., Inc., Contract No. GS-06B-79001           01/18/80
16-9444-033           Preaward Evaluation of Change Order
                      Proposal, The Southern Plate Glas s Co.
                      Contract No. GS-03B-78054                      01/22/80

1 2- 8164 -044 ( A)   Letter Rpt - Re imbursable Cost on the
                      Construction Management Contract,
                      Lasker-Goldman Corporation and
                      St. Simons Construction Co., Inc.,
                      A Joint Venture, Federal Law
                      Enforcement Training Center,
                      Glynco I GA                                    01/25/80

26-9433-033           Lease Escalation Proposal, Virginia
                      Corporation, Lease No. GS-03B-5875             01/25/80

lA-O 0113-0 6-0 6     Preaward Evaluation of Pricing
                      Proposal, Peckham, Guyton, Albers,
                      and Viets, Inc., St. Louis, MO                 01/28/80

lA-00.296-l1-11       Preaward Evaluation of A-E Pricing
                      Proposal, Kidde Consultants, Inc.,
                      Contract No. GS-03B-89057                      01/29/80

26-9501-022           Electricity and Chilled Water Costs,
                      United States Customs Building,
                      World Trade Center, the Port
                      Authority of New York and New Jersey,
                      Lease No. GS-02B-15,370, for the
                      period August 17, 1973 through
                      December 31, 1978                              01/29/80

IF-OOOOI-OI-01        Preaward Evaluation of Pr icing
                      Proposal, Steven Moore/John Weinrich -
                      Ar ch i te cts J/V Ente rpr ise Engineer ing
                      Brunswick, Maine                               01/30/80

12- 9249-04 4         Construction Management Project,
                      Henry C. Deck Co., Ft. Lauderdale
                      Federal Building and Courthouse,
                      Contract No. GS-04B-16164                      01/30/80




                                       44
                                                               Date of
Number                                   Title                 Report

2H-00112-04-04-D    Term Service Contract, Computer
                    Sciences Corp., Applied Technology
                    Division, Huntsville, AL, Contract
                    No. GS-04S-2271S                          01/31/80

1Q-00183-02-02      Preaward Proposal for Cost Management
                    Services, Amis Construction and
                    Consulting Services, Inc., Contract
                    No. GS-02B-23000                          02/04/80

13-9470-088         Preaward Evaluation of Pricing
                    Proposal, Swanson-Ri nk and Associates,
                    Inc., Project Nos. Z-CO-79-0S2, -OS2,
                    -OSS, -063, and -065                      02/06/80

IF-00135-04-04      Evaluation of Change Order Pricing
                    Proposal, Dawson Const ruct ion Co. ,
                    Inc., Contract No. GS-04B-16750,
                    C.O. No. DC-30-GC-2                       02/08/80

1C-0 019 9-0 3-11   Preawa rd Evaluat ion of Change Order
                    Proposal, The Southern plate Glass
                    Co., Contract No. GS-03B-780S4            02/08/80

lA-00148-11-05      Pre award Evaluation of Pr icing
                    Proposal, Elden-Rider, Inc.,
                    Proposal No. GS-03B-89049                 02/11/80

lS-00015-08-08      Preaward Evaluation of Pricing
                    Proposal, A&B Roofing, Pro ct No.
                    R-CO-78-lSl                               02/12/80

IB-00022-09-09      Evaluation of an A-E Price Proposal,
                    Reid & Tar    Associates, Inc.,
                    San Francisco, CA                         02/12/80

2J-00234-0S-05      Evaluation of Price Pro~osal,
                    Aeroquip Corporatrion-Industrial
                    Division, Van Wert, Ohio                  02/12/80

22-9073-099         Time and Material Contracts, Truck
                    Tractor Service Co., Contract No.
                    GS-09W-80148 and GS-9DPR-90ll1            02/13/80

lD-0018l-01-0l      Construction Manager Delay Claim,
                    Gilbane Building Company and
                    Parametric, Inc., J.V., Contract
                    No. GS-00B-01888                          02/13/80




                                    45
                                                              Date of
Number                              Title                     Report

22-8338-100         Interim Report - Time and Material
                    Contract, H&H Diesel Service s, Inc.     02/14/80
IF-00125-01-01      Claim for Increased Costs, Sherman R.
                    Smoot Co. I Inc., Contract No.
                    GS-03B-78055                             02/19/80

23- 928 0-112       Price Reduction and Defective Pricing,
                    Olivetti Corporation of America,
                    Contract No. GS-00S-66634                02/20/80

23- 9507-029        Review of Price Reductions and
                    Defective Pricing, GSC Athletic
                    Equipment, Inc., Contract Nos.
                    bS-02S-29702 and -29839                  02/20/80

2J-00168-01-01      Evaluation of Pricing Proposal,
                    Crystal Industrial Maintenance Co ••
                    Inc., Contract No. GS-OlC-000-3001       02/20/80

lA-00201-11-11      Preaward Evaluation of A-E Pricing
                    Proposal, The E/A Design Group,
                    Chartered, Contract No. EMW-C-0026       02/20/80

2 J-O 0169-06-06    Preaward Evaluation of Pricing
                    Proposal, Tombs Janitorial Service,
                    Inc., Kansas City, Missouri              02/21/80

IB-00321-07-07D     Preaward Evaluation of Price
                    Proposals, LSMG Architects-Planners,
                    Fort Worth, Texas                        02/21/80

IB-00180-01-01      Preaward Evaluation of Pricing
                    Proposal, Estimating Services
                    Associates, Inc., West Hartford,
                    Connect i cut                            02/26/80

2L-O 0302-0 4-0 4   Lease Escalation Costs,
                    230 Peachtree Street, Atlanta
                    Georgia, Contract No. GS-04   4793       02/26/80

l4-9249-099D        Review of Claim for Increased Costs,
                    C. F. Bolster Co., Subcontractors to
                    Huber, Hunt, & Nichols, Inc.,
                    Contract No. GS-09B-C-7002-SF            02/27/80




                                     46
                                                                Date of
Number                                   Title                  Report

24-9S28-066          Contract Termination Settlement
                     Proposal, Electro-Magnetic Refinishers,
                     Inc., Contract No. GS-06W-OI053           02/27/80

ID-00141-11-11D      CIa im for Increased Costs, Exposa ic
                     Industries, Inc., Contract No.
                     GS -0 3 B- 7 8119                         02/27/80

25-9263-033          Cost Plus Award Fee Contracts, General
                     Maintenance Service Company I Inc.        02/28/80

IB-00182-01-0 2      Preaward Proposal for Elevator
                     Consulting Services, W. A. Digiacomo
                     Associates, Contract No. GS-OIB-91983     02/28/80
2R-00 299-00 -26D    Evaluation of Pr ice Proposal,
                     Scientific Communications, Inc.
                     Solicitation No. GSC-CDPS-C-K-OOOOl-
                     N-11-21-79                                02/28/80

2J-00311-06-06       Preaward Evaluation of Pricing
                     Proposal, Glow Janitorial and Cleaning
                     Service, Contract No. GS-06B-60022-01     02/28/80

2B-00316-00-0S       Preaward Evaluation of Price Proposal,
                     Pako CorJ:X)ration, Solicitation No.
                     FPHP-2-7Sll2-N                            02/28/80

ID-0032S-00-0S(b) Claim for Increased Costs, Sauer
                  Mechanical Contractors, Inc., Sub-
                  Contractor to William Passalacqua
                  Builders, Inc., Contract No.
                  GS-04B-13811                                 02/28/80

17-9463-066          Preaward Evaluation of Pricing
                     Proposal, ~om Martin's Asphalt &
                     Paving Co./Schuster Engineering., Inc.
                     Contract No. GS-06B-73461                 02/29/80
2J-0 0 237-0 S-O S   Preaward Audit of Pricing Proposal,
                     Rainey's Security Agency, Inc.,
                     Contract No. GS-OSB-27S05                 02/29/80

2W-00166-09-09       Time and Materials Contracts
                     Lee and Nakata, Contract Nos.
                     GS-09W-80094 & GS-9DPR-90080              03/0S/80
lD-0032S-00-0S(a) Claim for Increased Costs, William
                  Passalacqua Builders, Inc.,
                  Contract No. GS-04B-138ll                    03/0S/80




                                    47
                                                                        Date of
Nuffibe;r                                   Title                       _~eport

12-9452-044         Reimbursable Costs, Paid Day and
                    Zimmerman, Inc., Construction Management
                    Contract, Strom Thurmond Federal Building
                    and u.s. Courthouse, Contract No.
                    GS-04B-16163                                        03/06/80

14-9250-099D        Revised Claim for Increased Costs,
                    Owens-Corning Fiberglas Corp.,
                    Subcontractors to Huber, Hunt and
                    Nichols, Inc., Contract No.
                    GS-09B-C-7002-SF                                     03/07/80

lC-00295-11-11      Preaward Evaluation of change Order
                    Proposal, Grunley-Walsh Construction
                    Co., Inc. , Contract No. GS-03B-78255                03/11/80

lA-00301-11-11      Preaward Evaluation of A/E Pricing
                    Proposal, Smith and Faass Consulting
                    Engineers, Inc., Contract No.
                    GS-03B-98395                                         03/11/80

2L-00339-04-04      Lease Escalation Costs, 4685 Log
                    Cabin Drive, Macon, Georgia, Lease
                    No. GS-04B-15226                                     03/11/80

14-9439-032         Delay Claim SSA/Metro West,
                    Architects and Engineers, A Joint
                    Venture, Contract No. GS-00B-03414                   03/12/80

     00149-04-04    Change Order Proposal No. 67A,
                    Frank Briscoe Co., Inc., Contract
                    No. GS-O    6375                                     03/12/80

     00151-04-04    Change Order Proposal No. 71,
                    Frank Briscoe Co., Inc., Contract
                    No. GS 4B-16375                                      03/12/80

2W-002         01   Time and                          , Wal
                    Engineering               t   Inc., Contract
                    No. GS-OIW-00477                                     03/12/80
2J-00303-06-06                          of                         I,
                    Bright       Company, Inc., Contract
                    No. GS-06B-60019                                     o   3/80

IB-00313-02-02      Pre award               for
                                I   Wm. F. Pedersen & Assoc., P.C.       o        o




                                       48
                                                               Date of
  Number                                 Ti tIe                Report

lA-00356-07-07-D   Preaward Evaluation of Price Proposal,
                   Williams-Stackhouse, Inc.                   03/17/80
14-9252-099D       Revised Claim for Increased Costs,
                   San Diego Tile Company, Subcontractors
                   to Huber, Hunt & Nichols, Inc.
                   Contract No. GS-09B-C-7002-SF               03/18/80

IB-00319-02-05     Preaward Evaluation of AlE Pricing
                   Proposal, A. Epstein & Sons                 03/18/80

 22-9432-033       Time and Materials Contract, CFE
                   Equipment Corp, Contract No.
                   GS-03~-v-20063                              03/20/80
IF-00025-09-09     Evaluation of an A/E Price Proposal,
                   Carter Engineers, San Diego, CA,
                   Supplemental Mechanical/Electrical
                   Term Contract                               03/20/80
 IV-00126-00-05    Evaluation of Value Engineering
                   Change Proposal, The Mosler Safe
                   Company, Contract No. GS-03B-78341          03/20/80
 26-9341-022       Lease Escalation Proposal, Ecom
                   Building, Dworman Building Corp.,
                   New York, New York, Lease No.
                   GS-02B-15526                                03/21/80
 lA-00300-10-10    Preaward Evaluation of A/E Price
                   Proposal, Naramore, Bain, Brady and
                   Johanson                                    03/25/80
 2J-00312-09-09    united Maintenance                          03/25/80
 IB-00018-08-08    Preaward Evaluation of Pricing
                   Proposal for Term Contract, Brixen
                   and Christopher, Project No.
                   Z-UT-79-058                                 03/27/80

2Q-00340-00-26D    Evaluation of Pr        Proposal, Genasys
                   Corporation                                 03/27/80




                                    49
                            REPORT REGISTER
                            INTERNAL AUDITS
                                                                Date of
Number                                  Title                   Report

91-9542-113          Review of Management and Operations
                     of the National Arch ives and Records
                     Serv ice                                  10/01/79

35-9420-088          Self-Service Store, Denver Federal
                     Center, Region 8                          10/05/79

77-9505-113          Interim Report on Review of Selected
                     PBS Lease Prospectuses                    10/05/79

32-9032-044          Heed for Improvement in Administrative
                     Practices, Procedures and Internal
                     Control at the Interagency Data Systems
                     Facility, Huntsville, Alabama             10/10/79

33-6087-022-F(3)     Followup - Federal Supply Service
(short form)         Quality Control and Assurance Program     10/11/79

73-9323-033          The Central Support Field Office
                     Operation, Bladensburg, MD (Storage
                     of Polychlorinated Biphenyl - PCB)        10/15/79

49-9337-011          Need for Massachusetts State Agency
                     for Surplus Property to Strengthen
                     Controls over Donated Property, Reg. 1    10/16/79

7 3- 9177 -0 3 3     Review of Selected Procurements Made
                     by Region 3, PBS, Philadelphia Area
                     Office                                    10/16/79

74-8120-0 44-F( I}   Fol1owup - Three Recommendations
                     Not Implemented, Construction Manage-
                     ment Project, Glynco, Georgia, Federal
                     Law Enforcement Training Center           10/16/79

35-8176-0 22-F( 1)   Followup - Self-Service Store
(short form)         Operations, New York, N.Y.                10/17/79

74- 9537 - 044       Audit Evaluation not Requested Prior to
                     Negotiating Construction Change Orders
                     and 8A Construction Contracts Exceeding
                     $100,000                                  10/17/79

65-8129-0 22-F( 1)   Followup - Management Services
(short form)         Division - Region 2                       10/19/79




                                   50
                                                                Date of
Number                              Ti tIe                      Report

4 9 - 9 3 36-0 4 4   Loss of Control Over Federally Owned
                     Surplus Property Managed by the Missis-
                     sippi State Agency for Surplus Proverty    10/19/79

35- S 277 -10 0      Report on Need to Implement Controls to
                     Protect, Utilize, and Maximize Return
                     on Government Assets                       10/23/79

54-9185-022          OVertime Payments Should Be More Closely
                     Controlled, Region 2                       10/24/79

74-S179-044(B)       Contracting Officer Does Not Understand
                     Control System He Is Responsible for
                     Implementing                               10/24/79
69-6013-112-F2       Follow-Up on the Franklin D. Roosevelt
(short form)         Library, Hyde Park, New York               10/24/79

70-9349-033          Improvement Needed in Administration of
                     Delay Claims Under Term Contracts for
                     Space Planning SErvices, Special Projects
                     Division                                  10/26/79

52-9183-100          Report on Procurement of Commercial
                     Repair Services by Motor Pools Need
                     Improvement for Better Economies and
                     Controls                                   10/26/79


32-8268-077-F(1)     .i:"o11owup - Inventory Management,
(short form)         Region 7                                   11/01/79

34-9402-044          Opportunities Exist for Reducing Cost
                     at the Atlanta Motor Pool If Payment
                     and Procurement Practices Were Improved    11/08/79

76-6066-08S-F(2)     Second Followup of Recommendations
                     Contained in Audit of Management of
                     Excess and Surplus Real Property,
                     Region S                                   11/15/79

65-8086-011          Followup - Regional Management Services
(short form)         Division, Region 1                         11/27/79

54-9502-066-S        Survey of Supply Billings to
                     Government Contractors                     11/29/79

77-9218-088          Improvements Needed in Lease Awards
                     and Administration in Region 8             11/29/79




                                     51
                                                               Date of
Number                                   Title                 Report
32- 8268-099-F (1)   Followup - Inventory Management -
(short form)         Phase I, Federal Supply Service,
                     Region 9                                 11/29/79

32- 93 25-10 0       FSS Multiple Award Schedules for
                     Vehicle Parts- An Unnecessary and
                     unmanageable Program                     11/29/79

77-9224-088          Improvements Needed in Approval of
                     Repairs, Alterations, and Improvements
                     in Leased Space in Region 8              11/29/79

52-9182-044          Although Improvement Has Been Made,
                     PBS and Finance Continued to Have
                     Problems Administering Functions
                     Associated with the Federal Buildings
                     Fund I Reg ion 4                         11/30/79

57-9351-077          Need to Strengthen Contro Is over
                     Office of Administration (OAD)
                     Pro c ur emen ts                         11/30/79

77-9224-077          Improvements Needed in Procurements
                     of Lease Alterations                     11/30/79


34-80S2-099-F( 2)    Second Followup on Recommendations
                     Contained in Audit of Oakland
                     Interagency Motor Pool Operations,
                     Alameda, California, Region 9            12/11/79

34-9403-044          Management at Raleigh Motor Pool
                     Was Considered Lax                       12/14/79

54- 83 29-0 99       $316,000 in Federal Buildings Fund
                     Obligations Invalid, FY 1978             12/14/79

6J-0 013 0-0 021     Interim Report - Interagency Audit
                     of Property Management: Systems
                     Furniture                                12/14/79

34-9146-04 4-F (1)   F0110wup - Interagency Motor Pool
(Short form)         Operations, Cape Kennedy, Florida
                     Motor Pool, Region 4                     12/17/79

37-8414-0 22-F( 1)   Fol1owup - Administration of Time
(Short form)         and Material Contracts - OtHer Than
                     Heavy Equipment                          12/19/79

32-733 2-1l3-F( 1)   Test Mandatory Small Business
                     Contracting                              12/20/79



                                    52
                                                                Date of
Number                                   Title                  Report
74-<1215-100          Mismanagement of Construction
                      Contracts Indicates Need to Rescind
                      Contracting Officer's Authority          12/28/79
5E-00129-00-11        Administrative Practices and
                      Procedures of the National Advisory
                      Council on Economic Opportunity
                      Generally Satisfactory - Minor
                      Improvements Needed                      12/31/79


4F-0 0084-0 2-0 2     Interim Report - Energy Conservation     01/03/80

 3 2-8268-088-F( 2}   Second F/U - Inventory Management -
. (short form)        Phase I, Federal Supply Service,
                      Region 8                                 01/07/80

74-8179-044-F(2)      Second F/U - Two Audit Recommendations
(short form)          Not Implemented on Construction of
                      Federal Correctional Institution,
                      Talladega, AL                            01/10/80

34-9407-077           Baton Rouge Motor Pool Operations
                      Are Efficient and Effective              01/21/80

37-8010-113-F(1)      Review of the Suitability of Time
                      and Material Contracts for the
                      Repair of Heavy Cohstruction
                      Equipment                                01/21/80
3G-00043-04-04        Letter Rpt - Self Service Store
                      Operations, Miami, FL, Region 4          01/21/80
34-9406-077           Fort Worth Interagency Motor Pool
                      Operations are Efficient and
                      Effective                                01/22/80

35-8011-100-F(1)      F/U - Limited     ew of Self
                      Service Store Operations, Seattle,
                      Washington, Region 10                    01/22/80

49-9225-022           Procedures for Awarding Annual
                      Contracts for Handling Stragegic
                      Materials Need Revision                  01/23/80

77-950    13          Selected Public Buildings Service
                      Lease Prospectuses                       01/23/80
34-6018-113-F(2)      Second F/U   Interagency Motor
                      Pool Operations, Philadelphia, PA        01/25/80



                                    53
                                                                  Date of
Number                                        Titre               Report
74-9076-ll3-F{1)        F/U - Administration of Votrakon,
                        Saudi-Arabian Construction Project        01/28/80

85-9222-l13-F(1)        F/U - Redistribution and
                        Reutilization of ADP Equipment            01/28/80

77-6065-022-F(1)        F/U - Lease Escalation Clauses,
                        Region 2                                  01/29/80

77-9506-088             Special Review of the Lease and
                        Construction of the Helena, Montana,
                        Federal Building, Region 8                01/30/80

3G-0004 2-07 -0 7       Improvements lJeeded in Internal
                        Controls at New Orleans Self Service
                        Store                                     01/30/80
35-9421-099             Improvement Needed in the Operations
                        of West Los Angeles Self-Service Store,
                        Region 9                                  02/11/80

63-9283-093             Computer Security and Firesafety
                        Practices can be Improved in Region 9     02/11/80

4G-00307-03-ll             cial Review of Leased Space,
                        Brittingham Building, Hampton, VA         02/12/80

4D-00308-04-04          Letter Rpt. - Procurement Review of
                        the Buildings Management Office,
                        Hunt sv ille, Alabama                     02/12/80

4 G -0 0 3 0 6 -11-11   OVer $2.5 Million to be Paid to
                        Lessor Before Space is Available for
                        Occupancy, Bicentennial Building,
                        Washington, D.C.                          02/14/80

57-9291-077             Review of Federal Building Fund
                        payments                                  02/15/80

3G-00051-01-01(P) Interim Report on Advertised
                  ProcureHlent                                    o   21/80

4G-00310-04-04          Letter Rpt. - Economy Act Limi tation g
                        Tibor Hollo Lease, Miami Customs,
                        Contract No GS-04B-15319                  o      80

35-9422-100             Need for Implementation of Internal
                        Controls over Self-Service Store
                           rations, Portland, Oregon,
                           ion 10                                 a      80



                                         54
                                                                  Date of
Number                                   Ti tIe                   Report
70-9178-022           Interim Report on PCB Improperly
                      Stored at Mil i tary Ocean Terminal,
                      Brooklyn, Hew York                         02/22/80

49-9337-100-S         Survey - Personal Property Donation        02/22/80

4F-00078-10-10        Buildings Management Field Office,
                      Boise, ID, Region 10                       D2/22/80

4F-00084-0 2-02       Inter im Rep:>rt on Excess ive Energy
                      Being Expended in Government
                      Buildings in Violation of Presidential
                      Directive                                  02/22/80

32-9134-033           Opportunities for Substantial Economies
                      Exist in the Procurement of xerographic
                      Paper                                      02/2S/80

20-S002-CAC-F(2)      Second Followup on Audits of INFONET,
                      RAMUS, and Advanced Record System Data
                      Se cur i ty                                02/26/80

S 7-83 3l-113-F( 1)   Followup - Review of Overtime Payments
(short form)          Central Office                             02/27/80

SD-00088-0S-0S        Interim Report - Review of Obligations
                      Section 1311, P.L. 663                     02/27/80

74-9425-044           The A-E Term Contract Program, Region 4,
                      Needs Direction                            02/28/80

3G-00055-0l-01S       Survey - Warehouse Refusals                02/28/80
4D-00078-07-07        Procurement Controls Satisfactory
                      At El Paso PBS Field Office                02/29/80

SD-00088-09-09        Inter im Rep:>rt - Need to Establish
                      and Report Lease Escalation Accruals       02/29/HO

4G-OOlS7-02-02        Over $SOO,OOO Paid for Unused Space
                      Under a Sublease Soon to Expire -
                      Region 2                                   02/29/80

2S-8068-F(2)          Followup of GAO report on Opportunities
                      to Reduce the Cost of Government
                      Vehicle Billings                           03/0S/80
49-9337-099           Interim Report on Control over Federal
                      Property Donated by the California
                      State Agency Needs to be Improved          03/11/80



                                    55
                                                              Date of
Number                            Title                       Report
4D-00082-03-03      Interim Report - The Heating Operation
                    and Transmission Area, National Capital
                    Region (Procurement of Coal)              03/11/S0

35-8011-077-F      Followup - Self-Service Store
                   Operations, Region 7                       03/12/80
          .
84-818S-022-F      Followup - GSA's Involvement in
(short form)       MRC TV                                     03/12/S0

35-9140-077-F      Followup - Conduct of Austin Self-
(short form)       Service Store Officials Warrants
                   Disciplinary Action                         03/13/80

3G-00IOI-05-05-S    Survey of Requisition Processing
                    and Control, Region 5                      03/14/80

74-8120-044 (b)    Problems in the Administration of
                   the Lasker-Goldman Construction
                   Management Contract for the Federal
                   Law Enforcement Training Center
                   Project, Glynco, Georgia                   03/18/S0

4F-00078-04-04      Procurement Review of Miami, Florida
                    Buildings Management Office               03/19/80

4D-00274-04-04      Procurement Review of Thomasville,
                    Georgia, Buildings Management Office      03/19/S0

73-9324-055        Delays in Processing Payments to
                   Vendors Caused Lost Discounts that
                   Increased Costs                            03/20/80

70-917S-022        Interim Report on Unsafe and Unhealthy
                   Working Conditions Exist at the
                   Transportation and Public utilities
                   Service Interagency Motor Pool,
                   203-9 Centre St., New York City             03/21/80

70-9178-022        Interim Report on Potentially Dangerous
                   Conditions Exist at the Federal Supply
                   Service Quality Control Laboratory,
                   201 Varick Street, New York City           03/21/S0

32-9413-077        Multiple Awards for Lawn and Garden
                   Equipment, Chemical and Chemical
                   Products                                   03/25/80

 -8273-044-F(2)    Second Followup on Proces    Vouchers
                   for Payment, Reqion 4                      03/26/80




                                  56
                                                             Date of
    Number                        Title                      Repor;t

    2S-8012-F       Second Followup on GAO Report No.
                    PSAD-77-171, Government Specifications
                    for Commercial Products - Necessary
                    or Wasted Effort, November 3, 1977       03/27/80

    36-8212-113-S   Survey - The Jewel Bearing Program
                    and the William Langer Jewel Bearing
                    Plant, Rolla, North Dakota               03/27/80




GSA _ 01004596                   57
